        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
American Recovery and
Reinvestment Act – Massachusetts
State Energy Program




OAS-RA-11-06                        March 2011
                                 Department of Energy
                                    Washington, DC 20585
                                         March 22, 2011



MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY, ENERGY EFFICIENCY
                     AND RENEWABLE ENERGY

FROM:                    George W. Collard
                         Assistant Inspector General
                           for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         American Recovery and Reinvestment Act – Massachusetts State
                         Energy Program"

BACKGROUND

The Department of Energy's (Department) State Energy Program (SEP) provides grants to states,
territories, and the District of Columbia (states) to support their energy priorities. The SEP
allows the states to implement energy efficiency and renewable energy projects that meet their
unique energy needs and emphasizes the state's role as the administrator for the program. The
American Recovery and Reinvestment Act of 2009 (Recovery Act) significantly expanded the
SEP by providing an additional $3.1 billion for states' projects. The Commonwealth of
Massachusetts' Department of Energy Resources (Massachusetts) was allocated $54.9 million in
SEP funds under the Recovery Act – a more than 72-fold increase over its Fiscal Year 2008 SEP
grant of $753,000. As specified by the Department in its grant agreement and program guidance,
SEP funding was to be obligated by September 30, 2010, and spent by April 30, 2012.

Massachusetts planned to use its grant funds to undertake activities that would preserve and
create jobs, save energy, increase renewable energy sources, and reduce greenhouse gas
emissions. The Department required Massachusetts to have sound internal controls under the
SEP, which became even more important with the increase in funding under the Recovery Act.
Because of the states' important role in the implementation of the Recovery Act, we initiated this
review to determine whether Massachusetts had internal controls in place to provide assurance
that the goals of the SEP and Recovery Act would be accomplished efficiently and effectively.

RESULTS OF AUDIT

Massachusetts had, for the most part, implemented processes and controls necessary to manage
its SEP Recovery Act funding. For example, Massachusetts employed a project selection
process designed to accelerate project implementation and achieve SEP Recovery Act goals.
This allowed Massachusetts to disburse $26.4 million (about 48 percent) of its SEP Recovery
Act funds by January 31, 2011. However, we observed that the accomplishment of SEP
Recovery Act goals could be hindered by Massachusetts' incomplete plans for monitoring grant
activities. We also found that, contrary to reports that 97 percent of Massachusetts' SEP
Recovery Act funding had been obligated, obligations were overstated as contracts for certain
projects had not actually been executed. As such, the funds were not available to provide
economic stimulus activity as soon as anticipated.

                                     Sub-recipient Monitoring

We found that, although it had draft plans, Massachusetts had not finalized Recovery Act sub-
recipient oversight plans and procedures. Specifically, Massachusetts had not completed its
plans for site visits to the sub-recipients that received funding directly from Massachusetts. It
also had not finalized the selection methodology for visiting the more than 100 entities that
received funding from the sub-recipients (referred to as second-level sub-recipients). In addition,
Massachusetts had not determined whether additional staff would be required to properly
implement its oversight activities.

Although Massachusetts planned to perform monitoring site visits to all direct sub-recipients and
a select number of second-level sub-recipients, it had not defined when and how often such visits
would occur. Massachusetts officials indicated that they planned to visit every direct sub-
recipient each quarter. However, they had not finalized this approach or developed a definitive
schedule, and did not begin conducting initial visits until October 2010. As for second-level sub-
recipients, Massachusetts officials told us that they determined monitoring would need to be
done on a sample basis, given the large number of such recipients. However, Massachusetts had
not developed a sampling methodology to identify how second-level sub-recipients would be
selected. While Massachusetts' monitoring documents state that site visits would be conducted
periodically, specific site visit schedules and selection criteria are necessary to ensure consistent,
objective execution of site visits.

Further, Massachusetts had yet to make a decision on whether additional staff would be needed
for conducting site visits. Massachusetts developed and provided us with internal procedures for
performing monitoring site visits; procedures which appeared, if properly implemented, to be
sufficient to address the issues of primary concern under the Recovery Act. However,
Massachusetts officials told us that they had not decided whether it would be necessary to hire
additional staff to help implement these procedures. Until the necessary arrangements for
performing and staffing site visits are finalized, Massachusetts lacks assurance that such visits
will be completed in a timely manner, an activity essential to preventing or detecting
inappropriate activities and expenditures.

                                        Status of Obligations

We also noted that Massachusetts' obligations, as defined and subsequently clarified by the
Department, were overstated. For example, as of June 24, 2010, Massachusetts' SEP Recovery
Act funds were reported as 97 percent obligated even though at least 43 percent, or
approximately $23.8 million, did not have executed contracts in place. While actual obligations
have since been brought closer in line with reported obligations, as of September 30, 2010,
obligations were still overstated by about 6 percent. Specifically, the funding for two projects

                                                  2
under Massachusetts' High Performance Buildings (HPB) program were reported as obligated
even though these projects did not have executed contracts.
Under Massachusetts' HPB program, one of its 3 major categories of SEP Recovery Act projects,
Massachusetts reported that it had obligated $16.25 million to 11 discrete projects. However, as
of September 30, 2010, the date the Department designated to have all Recovery Act funds
obligated, 2 of these 11 projects still did not have executed contracts. Specifically, its
United Teen Equality Center project valued at $1.9 million and its Hawthorne Hotel project
valued at $1.4 million did not have executed contracts. Instead, Massachusetts had
Memorandums of Understanding in place, which it understood met the definition for funds being
obligated, even though a separate contract still needed to be executed to release the funds.

It is critical that obligations are accurately reported. The Department has stated that obligations
by grantees to sub-recipients is a key performance metric that demonstrates that contracts are
executed, projects are underway, and jobs are being created or retained, thereby positively
impacting economic recovery. Inaccurate reporting of key performance metrics adversely affects
management's ability to determine the impact of Recovery Act efforts, and, where necessary,
direct remedial or corrective actions.

                                     Departmental Guidance

The concerns addressed in this report can be attributed, at least in part, to insufficient guidance
from the Department. Specifically, the Department did not provide timely guidance pertaining to
sub-recipient monitoring. In addition, the Department's initial guidance did not adequately
define an obligation.

As we noted in our status report on The Department of Energy's State Energy Program Formula
Grants Awarded under the American Recovery and Reinvestment Act (OAS-RA-10-17,
September 2010) (See Attachment 2), the Department had not issued sub-recipient monitoring
guidance to the states. Although the Department subsequently developed monitoring guidance
that became effective on October 26, 2010, Massachusetts officials asserted that more timely
formal guidance would have enabled them to incorporate and implement this guidance into their
own monitoring plans sooner. In particular, Massachusetts officials indicated that they had a
"final draft" monitoring plan in place as of August 2010, but they were waiting for guidance
from the Department so that they could finalize the plan and determine the frequency of site
visits and finalize their hiring needs. Guidance from the Department was particularly important
because, according to Massachusetts officials, they lacked prior monitoring experience since
they had not made grants as large as those made possible by the allocation of Recovery Act
funds. Also, they stated that most of their prior SEP funding went to developing energy policy
and, therefore, had fewer monitoring requirements.

Further, additional clarity in the definition of an obligation may have helped Massachusetts more
accurately report its funds obligated. The Department defined an obligation as a "binding
commitment" in formal guidance issued in March 2010. Massachusetts officials, however, stated
their belief that this definition was not specific and allowed for interpretation. According to the
Department and Massachusetts officials, reporting obligations is a new metric for SEP activities.
As such, formal guidance, to include a specific definition or examples, was needed to clarify

                                                3
questions regarding the definition of an obligation. However, it was not until September 20,
2010, that the Department provided formal guidance that defined in more detail what constituted
an obligation.

The Department, in responding to an initial draft of this report, stated that it provided additional
guidance to Massachusetts regarding site visits and the definition of an obligation prior to issuing
formal guidance. Specifically, it asserted that telephone discussions were held with
Massachusetts officials in early March 2010, that included guidance about how to perform site
visits and clarification of what constituted an obligation. In addition, in a letter to SEP grantees
in April 2010 to congratulate them for their progress, inform them of upcoming milestones, and
offer technical assistance, the Department mentioned that an obligation consists of "funds
executed in contracts." While the Department contends that these steps were sufficient to ensure
consistent understanding of obligations, Massachusetts officials indicated that they could have
benefited from more specificity in the Department's guidance.

                                            Other Factors

Other factors also contributed to the situations described in our report. In particular, it took
longer than anticipated for Massachusetts to finalize its contracts on all of its projects, a factor
that delayed its efforts to implement its monitoring guidance. Additionally, the Department's
oversight of Massachusetts did not include validation of amounts claimed as obligated.

Massachusetts officials told us that they initially focused their efforts on developing and signing
agreements and contracts to disburse the Recovery Act funds quickly. After completing the
procurement process, Massachusetts officials explained that they planned to devote all of their
resources to developing plans for monitoring. However, Massachusetts officials noted that
Recovery Act requirements turned out to be more complex than anticipated, resulting in delays
in finalizing projects. Specifically, and as we noted in our status report on The Department of
Energy's State Energy Program Formula Grants Awarded under the American Recovery and
Reinvestment Act, the mandates placed on the states for Recovery Act reporting, National
Environmental Policy Act, National Historical Preservation Act, Buy American provisions of the
Recovery Act, and the Davis-Bacon Act required additional time and effort before contracts
could be awarded. Massachusetts officials noted they had to become familiar with these
requirements in order to help their sub-recipients understand them. Also, the Department issued
multiple guidance documents that had to be analyzed and then incorporated into contracts, an
effort which also required additional time.

With respect to amounts claimed as obligated, the Department did not adequately verify the
status of obligations by the grantee. Specifically, the Department did not ensure that the amount
of funds obligated matched the amount of funds from executed contracts. States discussed the
obligation status of their funds with the Department during weekly phone calls or other
communication. In addition, Department monitoring visits typically included a review of the
status of the grantee's obligations. Although Department officials stated that those conducting
visits are to cross-check the obligation status of funds with the states' progress on activities and
spending as part of the monitoring process, we found that this did not always occur. Given that



                                                   4
the Department has determined that obligations by grantees to sub-recipients is a key
performance metric of jobs being created or retained and demonstrates a positive impact on the
economy, thorough verification of funds reported as obligated is essential.

RECOMMENDATIONS

To address the problems outlined in our report, we recommend that the Assistant
Secretary, Energy Efficiency and Renewable Energy (EERE) ensure that:

    1. Massachusetts finalizes its SEP site visit monitoring activities, to include:

           a. Developing a schedule for direct sub-recipient site visits;

           b. Developing a sampling methodology for second-level sub-recipient site visits;
              and,

           c. Ensuring that staff and/or contractors are in place to perform each site visit.

    2. Obligations reported by the states accurately reflect executed contracts.

MANAGEMENT COMMENTS

EERE concurred with the recommendations and stated that it will continue to closely oversee the
work carried out under Massachusetts' SEP, including regular on-site visits, frequent
communication and reviews of all reports. Further, management stated that Massachusetts is
refining or developing its internal controls and is implementing a system to identify and monitor
high-risk sub-recipients. In addition, EERE plans to verify that appropriate and acceptable sub-
recipient monitoring methodologies are in place and to validate their monitoring model during
their next monitoring visit to Massachusetts. Finally, EERE agreed to ensure that site visits,
when conducted, are performed effectively and obligations are reported accurately. EERE's
comments are included in Attachment 3.

Massachusetts officials asserted that they had addressed and rectified all of our report's findings,
including finalizing a monitoring plan, by December 2010. Massachusetts' comments indicated
that, although contracts had not been executed, sub-recipients were, in fact, implementing
staffing plans on the basis of commitments. Additionally, Massachusetts officials stated that
they were fully aware of the implementation schedules of SEP projects and had implemented a
site monitoring plan for the few projects that had actual work. Massachusetts' comments are
included in Attachment 4.

AUDITOR RESPONSE

EERE's and Massachusetts' comments are responsive to our recommendations. Regarding
Massachusetts' observation that sub-recipients were executing staffing plans prior to the
execution of contracts, our work has shown, in the past, that actual expenditures are an
appropriate measure of the amount of work performed under the Recovery Act. An executed

                                                 5
contract is generally recognized as required before funds can be expended. Concerning
Massachusetts' statement that it had implemented its site monitoring plan for a few projects;
when we inquired, Massachusetts indicated that it had some monitoring site visits planned for the
near future, but had not yet performed any visits. Further, until a schedule is in place and
finalized, there is no assurance that site visits will be performed consistently and timely.

We also considered Massachusetts' technical comments and made revisions to the report, as
appropriate.

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Associate Deputy Secretary
    Chief of Staff




                                               6
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the Commonwealth of Massachusetts'
Department of Energy Resources (Massachusetts) had internal controls in place to provide
assurance that the goals of the State Energy Program (SEP) and the American Recovery and
Reinvestment Act of 2009 (Recovery Act) will be accomplished efficiently and effectively.

SCOPE

The audit was performed from February 2010 to December 2010, at the Massachusetts Executive
Office of Energy and Environmental Affairs, Department of Energy Resources, in Boston,
Massachusetts. We also obtained information from the National Energy Technology Laboratory
(NETL) in Morgantown, West Virginia. The audit scope was limited to Massachusetts' SEP.

METHODOLOGY

To accomplish the audit objective, we:

    • Reviewed Federal regulations and Department of Energy (Department) guidance related
      to the SEP and Recovery Act;
    • Reviewed State legislation related to the SEP in the Commonwealth of Massachusetts;
    • Reviewed Massachusetts' SEP annual plan for Recovery Act funds;
    • Reviewed Massachusetts' grantee documents for recipients of Recovery Act funds;
    • Held discussions with Massachusetts' personnel; and,
    • Held discussions with program officials from NETL.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We assessed the Department's implementation of the Government
Performance and Results Act of 1993 and determined that it had established performance
measures for the management of the SEP and the Recovery Act. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. Finally, we did not rely on
computer-processed data to accomplish our audit objective.

We held an exit conference with Massachusetts officials on March 8, 2011, and Department
officials waived the exit conference.



                                                7
                                                                                    Attachment 2


                               RELATED AUDIT REPORTS

Office of Inspector General Reports

   •   The Department of Energy's State Energy Program Formula Grants Awarded under the
       American Recovery and Reinvestment Act, (OAS-RA-10-17, September 2010). This
       review found that a number of impediments adversely impacted State Energy Program
       (SEP) spending rates, and, thus, prevented the program from achieving significant
       economic and energy savings benefits. In particular, compliance with various regulatory
       requirements slowed spending. As of July 9, 2010, 74 percent of the $3.1 billion in SEP
       American Recovery and Reinvestment Act of 2009 (Recovery Act) funding had been
       approved for spending, but of that amount, only about 7.2 percent had actually been
       expended. We also identified issues and challenges with preparing projected and
       reported energy savings for the SEP. Finally, we noted that while the Office of Energy
       Efficiency and Renewable Energy had recently taken action to address project monitoring
       shortfalls at the State level, several States' monitoring plans remained incomplete.

   •   The Department of Energy's American Recovery and Reinvestment Act – Florida State
       Energy Program, (OAS-RA-10-12, June 2010). Our review determined that weaknesses
       in the implementation of SEP Recovery Act projects had impacted and likely will
       continue to impact Florida's ability to meet the goals of the SEP and the Recovery Act.
       Specifically, Florida used approximately $8.3 million to pay for activities that did not
       meet the intent of the Recovery Act to create new or save existing jobs. Additionally,
       Florida did not meet state goals to obligate all Recovery Act funds by January 1, 2010,
       thus delaying projects and preventing them from achieving the desired stimulative,
       economic impact. We also found that Florida had not ensured that 7 of the 18 award
       requirements promulgated by the Department of Energy had been passed down to sub-
       recipients of the award, as required. Further, we identified internal control weaknesses in
       the State's Solar Energy System Incentives Program that could jeopardize the program
       and increase the risk of fraud, waste, and abuse. In response to our review, Florida took
       corrective action to incorporate the additional award requirements in sub-recipient
       documents and instituted additional controls to correct the internal control weaknesses we
       identified.

   •   Management Controls over the Department of Energy's American Recovery and
       Reinvestment Act – Louisiana State Energy Program, (OAS-RA-10-09, May 2010). Our
       review identified certain risks associated with Louisiana's implementation of the
       Recovery Act that could impact its ability to meet the goals of the SEP and the Recovery
       Act. Specifically, the State had not: established controls to prevent double payments for
       Recovery Act energy conservation rebates to individuals who may have been approved or
       received payment under an existing State rebate program; developed contingency plans to
       replace projects in the event that they did not receive timely National Environmental
       Policy Act approval to enable the expenditure of Recovery Act funds before the April
       2012 performance deadline; or, fully documented and monitored, in the past, the status of
       internally managed SEP projects as required by both EERE and Louisiana policies and



                                               8
                                                                Attachment 2 (continued)


procedures. We concluded that Louisiana's ability to meet the SEP Recovery Act
objectives in a transparent manner could be hindered unless it successfully addressed the
above risks.




                                        9
     Attachment 3




10
     Attachment 3 (continued)




11
     Attachment 3 (continued)




12
     Attachment 4




13
     Attachment 4 (continued)




14
     Attachment 4 (continued)




15
     Attachment 4 (continued)




16
                                                                    IG Report No. OAS-RA-11-06

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?


3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?


4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?


5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
